APPLICATION AND
SOLICITATION
DISCLOSURE
VISA SIGNATURE REWARDS/VISA PLATINUM
REWARDS/VISA TRADITIONAL/VISA SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Signature Rewards

9.49% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards

9.49% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Traditional

8.49% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured

9.24%
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Visa Signature Rewards
9.49% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
9.49% to 17.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Traditional
4.99% Introductory APR for a period of 36 billing cycles.
After that, your APR will be 8.49% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
9.24%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00906230-MXC10-P-1-041918 (MXC101-E)

APR for Cash Advances

Visa Signature Rewards
9.49% to 17.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
9.49% to 17.99% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Traditional
8.49% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured
9.24%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$10.00 or 2.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
Up to $30.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Promotional Period for Introductory APR - Visa Traditional:
The Introductory APR for balance transfers will apply to transactions posted to your account during the first 90 days
following the opening of your account. Any existing balances on USF Federal Credit Union loan or credit card accounts
are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: July 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Signature Rewards, Visa Platinum Rewards, Visa Traditional and Visa Secured
are secured credit cards. Credit extended under this credit card account is secured by various personal property
and money including, but not limited to: (a) any goods you purchase with this account, (b) any shares you
specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any
individual or joint account with the Credit Union excluding shares in an Individual Retirement Account or in any
other account that would lose special tax treatment under state or federal law, and (d) collateral securing other
loans you have with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and
agree that during any periods when you are a covered borrower under the Military Lending Act your credit card
will be secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in
any individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i)
you establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00906230-MXC10-P-1-041918 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $30.00 or the amount of the required minimum payment, whichever is less.
Cash Advance Fee (Finance Charge):
$10.00 or 2.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00906230-MXC10-P-1-041918 (MXC101-E)

